<html>
<title> - [H.A.S.C. No. 111-140]FORCE PROTECTION EQUIPMENT PROGRAMS FOR OPERATIONS IN IRAQ AND AFGHANISTAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-140]

    FORCE PROTECTION EQUIPMENT PROGRAMS FOR OPERATIONS IN IRAQ AND 
                              AFGHANISTAN

                               __________

                             JOINT HEARING

                               BEFORE THE

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                          MEETING JOINTLY WITH

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 17, 2010



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
57-835                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member
                  Elizabeth Drummond, Staff Assistant
                                 ------                                

                    AIR AND LAND FORCES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
MIKE McINTYRE, North Carolina        MARY FALLIN, Oklahoma
ROBERT A. BRADY, Pennsylvania        DUNCAN HUNTER, California
JIM COOPER, Tennessee                JOHN C. FLEMING, Louisiana
JIM MARSHALL, Georgia                MIKE COFFMAN, Colorado
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
BOBBY BRIGHT, Alabama                MICHAEL TURNER, Ohio
WILLIAM L. OWENS, New York           TODD RUSSELL PLATTS, Pennsylvania
DAN BOREN, Oklahoma
              Jesse D. Tolleson, Professional Staff Member
                 John Wason, Professional Staff Member
                     Scott Bousum, Staff Assistant






                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, March 17, 2010, Force Protection Equipment Programs 
  for Operations in Iraq and Afghanistan.........................     1

Appendix:

Wednesday, March 17, 2010........................................    39
                              ----------                              

                       WEDNESDAY, MARCH 17, 2010
    FORCE PROTECTION EQUIPMENT PROGRAMS FOR OPERATIONS IN IRAQ AND 
                              AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     3
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     3
Smith, Hon. Adam, a Representative from Washington, Chairman, Air 
  and Land Forces Subcommittee...................................     4
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

Brogan, Brig. Gen. Michael M., USMC, Commander, Marine Corps 
  Systems Command................................................     6
D'Agostino, Davi M., Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office..............     7
Oates, Lt. Gen. Michael L., USA, Director, Joint Improvised 
  Explosive Device Defeat Organization (JIEDDO)..................     4
Spoehr, Maj. Gen. Thomas W., USA, Director, Force Development, 
  U.S. Army; and Brig. Gen. Peter N. Fuller, USA, Program 
  Executive Officer, Soldier, Commanding General, Soldier Systems 
  Center, U.S. Army..............................................     4

                                APPENDIX

Prepared Statements:

    Brogan, Brig. Gen. Michael M.................................    66
    D'Agostino, Davi M...........................................    84
    Oates, Lt. Gen. Michael L....................................    47
    Smith, Hon. Adam.............................................    43
    Spoehr, Maj. Gen. Thomas W., joint with Brig. Gen. Peter N. 
      Fuller.....................................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
    FORCE PROTECTION EQUIPMENT PROGRAMS FOR OPERATIONS IN IRAQ AND 
                              AFGHANISTAN

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Seapower and Expeditionary Forces 
            Subcommittee meeting jointly with Air and Land 
            Forces Subcommittee, Washington, DC, Wednesday, 
            March 17, 2010.

    The subcommittees met, pursuant to call, at 2:29 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Gene Taylor 
(chairman of the Seapower and Expeditionary Forces 
subcommittee) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. The subcommittee will come to order.
    Today, the Seapower and Expeditionary Forces Subcommittee 
joins the Air and Land Forces Subcommittee in open session to 
receive testimony on force protection equipment for Operation 
Iraqi Freedom and Operation Enduring Freedom, with particular 
focus on armored vehicles, personnel body armor and counter-IED 
[improvised explosive device] initiatives.
    We welcome our witnesses for today.
    Representing the Army to discuss Army force protection 
systems are Major General Thomas Spoehr, director of force 
development, Army G-8; and Brigadier General Peter Fuller, 
program executive officer, soldier and commanding general, 
Soldier Systems Center.
    Representing the Marine Corps to discuss Marine Corps force 
protection and the MRAP [mine resistant ambush protected] joint 
vehicle program is Brigadier General Michael Brogan, commander 
of Marine Corps Systems Command, and the program executive 
officer for the MRAP Joint Program Office.
    Representing the Joint IED Defeat Organization is the new 
director of JIEDDO [Joint Improvised Explosive Device Defeat 
Organization], Lieutenant General Michael Oates.
    Representing the Government Accountability Office [GAO] is 
Ms. Davi D'Agostino, director, Defense Capabilities and 
Management. Ms. D'Agostino appears to discuss the release of 
the GAO's latest report on intelligence, surveillance and 
reconnaissance issues, based on site visits to Iraq and 
Afghanistan and prepared for the House Armed Services 
Committee.
    Today's joint hearing continues the committee's ongoing 
oversight activities regarding the full spectrum of force 
protection matters in Iraq and Afghanistan. Our last formal 
activity regarding force protection was a classified briefing 
in December of 2009.
    We meet today to receive updates on these critical, life-
saving programs and to provide an opportunity for the families 
of our fighting men and women to hear what the Army, Marine 
Corps and the DOD [Department of Defense] leadership are doing 
to protect their loved ones against the threats that their 
soldiers and Marines face abroad.
    Today's hearing is expected to cover and provide updates on 
a wide rate of programs to include: the mine-resistant family 
of vehicles, to include the lighter and smaller MRAP all-
terrain vehicle; individual protective equipment, such as 
lighter-weight body armor; the Army's new battle dress uniform; 
equipment used to detect snipers; counter radio controlled IED 
electronic warfare jammers; the continued challenge of getting 
adequate intelligence, surveillance and reconnaissance assets; 
and improvements in weapons and tactics for our operational 
forces.
    At this time last year, the MRAP all-terrain vehicle was 
still under source selection. No vehicles had been produced 
beyond small numbers of test assets, and no vehicles had been 
fielded to Afghanistan. In just one year, over 4,700 MATVs 
[MRAP all-terrain vehicles] have been produced, over 1,400 have 
been delivered to Afghanistan, and over 900 have been fielded 
to operational units. Their current producer is averaging 1,000 
vehicles per month.
    I want to publicly thank General Brogan and his entire team 
for the service they have provided to our nation in 
spearheading the MRAP and MATV effort. And as I have publicly 
mentioned before, I do not think there has ever been an 
acquisition program in the history of our nation that has 
fielded as fast and with such immediate and dramatic results.
    Your team's efforts have saved lives, General, and I want 
to thank you on behalf of the American people. There are young 
people alive today, because of what you have done, what you and 
your team have done.
    There are still major challenges ahead for us with respect 
to long-term sustainment of these vehicles, both in the field, 
here and overseas, as well as improving these vehicles through 
capability insertions.
    I am aware the MRAP Joint Program Office is currently 
pursuing several capability insertions and vehicle 
modifications to include installing independent suspensions on 
legacy vehicles, heavier and more capable door hinges on the 
MATVs. And I expect to receive updates on these today.
    A critical component to force protection is adequate 
training. That means having the ability to realistically train 
on the equipment the warfighter will actually use in combat 
ranging from individual equipment to jammers and armored 
vehicles.
    For example, more than half of the accidents involving 
MRAPs since November 2007 have been rollovers. I realize that 
some of these rollovers were attributed to poor roads and 
infrastructure, but I do believe some of the rollovers might 
have been prevented through better training.
    General Brogan, you stated in formal response to these 
subcommittees that--I am quoting--``the better trained the 
driver; the less likely they are to conduct a maneuver that 
will hazard the vehicle.''
    I understand that one of the lessons learned from the 
original, legacy MRAP program was to concurrently field 
vehicles to address both operational and training requirements, 
and that we are applying that lesson in the MATV program.
    I am still concerned over the limited number of legacy MRAP 
vehicles available to the Army for training, and hope to gain a 
better understanding of the Army's plan for addressing these 
vehicle shortfalls.
    Clearly, the MATV is a good news story and demonstrates 
that we are capable of applying lessons learned. However, we 
cannot become complacent.
    In the last year, Afghanistan has experienced a near 
doubling of IED events, and U.S. casualties have continued to 
increase.
    General Oates, in your testimony you state--and I am 
quoting--``over the past three years in Afghanistan, casualty 
rates of our warfighters have increased by roughly 50 
percent.''
    This concerns me, and I look forward to hearing from you on 
how your organization is addressing this trend.
    Before going to the witnesses' opening remarks, I would 
like to recognize my friend--okay, well, I will not be 
recognizing my friend from Washington state, Congressman Smith. 
I will, however, recognize my ranking member and my friend from 
Missouri, Mr. Akin, for any comments he may make.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
 RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman. And I would also thank 
you for scheduling this important hearing today. Because you 
have hit a lot of the highlights, I am going to be brief.
    I would also like to thank our GAO and Army witnesses for 
being here today.
    And, of course, General Brogan, you are not a stranger to 
this committee, and we are delighted to have you back. Thank 
you for being here.
    And also, General Oates, I believe this is your first time 
testifying in front of this committee. Welcome. This is an 
important subject. The testimony you are about to provide will 
assist us in determining how best to proceed with providing the 
necessary congressional oversight of these programs.
    Again, I want to thank all of you for your service to our 
country, and thank you for being here.
    And thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Akin.
    The Chair now recognizes the ranking member of the Air and 
Land Forces Subcommittee, the Honorable Roscoe Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you. I will be very brief, so we can 
get to the testimony and questions. Thank you very much for 
your service to your country. Thank you for being here today. I 
look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Bartlett.
    The Chair now recognizes the new chairman of the Air and 
Land Forces Subcommittee, the Honorable Adam Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
           CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Smith. Thank you, Mr. Chairman. I apologize for running 
a little bit behind schedule.
    Welcome to you all.
    If there is no objection, I would ask that my full 
statement be included in the record, and then I will follow Mr. 
Bartlett's lead. And I look forward to your testimony, and will 
ask questions at the appropriate time. And I appreciate the 
very important issues that we are here to discuss today, and 
the work that you all are doing on them.
    And with that, I will yield back.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 43.]
    Mr. Taylor. Thank you, Mr. Smith.
    Without objection, all the witnesses' prepared testimony 
will be included in the record.
    General Oates, thank you for your service and taking the 
time to be with us today. Please proceed with your remarks.

 STATEMENT OF LT. GEN. MICHAEL L. OATES, USA, DIRECTOR, JOINT 
    IMPROVISED EXPLOSIVE DEVICE DEFEAT ORGANIZATION (JIEDDO)

    General Oates. Thanks, Mr. Chairman. I appreciate the 
opportunity to be here today and testify.
    The IED remains the single greatest threat to life and limb 
of our forces in Iraq and Afghanistan, to include the civilian 
employees that are present. And so, the protection of those 
forces is a priority for the organization I know lead, the 
Joint IED Defeat Organization.
    I have provided a written statement, sir, and I will stand 
by. I am anxious to answer your questions.
    Thank you, sir.
    [The prepared statement of General Oates can be found in 
the Appendix on page 47.]

 STATEMENT OF MAJ. GEN. THOMAS W. SPOEHR, USA, DIRECTOR, FORCE 
 DEVELOPMENT, U.S. ARMY; AND BRIG. GEN. PETER N. FULLER, USA, 
PROGRAM EXECUTIVE OFFICER, SOLDIER, COMMANDING GENERAL, SOLDIER 
                   SYSTEMS CENTER, U.S. ARMY

            STATEMENT OF MAJ. GEN. THOMAS W. SPOEHR

    General Spoehr. Chairman Taylor, Chairman Smith, Ranking 
Member Akin, Ranking Member Bartlett, and other distinguished 
members of the committee, on behalf of the Army, Brigadier 
General Peter Fuller and I are honored to be here today to 
provide updates on Army force protection efforts.
    Let me preface my remarks by thanking the members of both 
committees for their leadership and continued support of the 
Army. We share a common purpose and commitment to develop in 
field the best equipment available to our soldiers, Army 
civilians and contractors serving in Operation Enduring Freedom 
and Iraqi Freedom.
    The brave men and women serving today represent the best of 
our society, and they continue to perform magnificently against 
a determined enemy in a complex and dangerous operational 
environment.
    After more than 8 years of continuous combat, we recognize 
the importance of keeping our deployed forces at the highest 
level of readiness and providing them the best capabilities 
available. Protection of our soldiers and critical warfighting 
assets remains the Army's highest priority.
    In response to the continued threat of improvised explosive 
devices, suicide bombers, other non-traditional threats, as 
well as the more conventional threats, such as small arms fire, 
the Army has pursued numerous initiatives to enhance the 
mobility, lethality and survivability of our soldiers and the 
formations in which they serve.
    These initiatives are captured in complementary and 
reinforcing layers of protection, which include continuous 
improvements to individual soldier protection, new and enhanced 
armored and wheel-tracked vehicles, new active and passive 
based defense capabilities, improved battlefield situational 
awareness with better intelligence, surveillance and 
reconnaissance platforms, as well as advances in biometrics and 
robotics.
    In addition, the Army has taken steps to lighten the 
soldier's load by fielding freight carriers, light-weight 
machine guns and tripods.
    While we have made significant improvements in our force 
protection posture, we know we must continue to provide 
improved solutions for two significant reasons.
    First, technology is always changing. Advancements are 
always being made. And we owe it to our soldiers to continue to 
invest in promising technologies that will give them a decisive 
edge in combat.
    Second, the weapons, tactics and motivation of our 
adversaries continues to adapt, and we must be more versatile, 
adaptable and unpredictable than the enemies we face. 
Therefore, the Army's ongoing commitment to provide our 
soldiers with the best equipment in the world is just that--
ongoing.
    We are always mindful that the soldiers in the field are 
the ones that bear the burden of battle. The Army remains fully 
committed to provide unwavering support for our soldiers, by 
giving them the best protective equipment and capabilities 
available to successfully confront current and emerging 
threats.
    Again, thank you for this opportunity to testify before 
your subcommittees today on this important issue. Thank you for 
your steadfast support of the American soldier. General Fuller 
and I look forward to answering any questions you may have.
    Thank you.
    [The joint prepared statement of General Spoehr and General 
Fuller can be found in the Appendix on page 53.]
    Mr. Taylor. The Chair thanks the gentleman.
    The Chair now recognizes Brigadier General Fuller.
    General Fuller. Thank you, sir. I have no prepared remarks. 
I am prepared to answer any questions you may have.
    Mr. Taylor. I hope you guys do not think you are getting 
off this light. [Laughter.]
    The Chair now recognizes a true American--you are all true 
American heroes--but another true American hero, Brigadier 
General Brogan.

  STATEMENT OF BRIG. GEN. MICHAEL M. BROGAN, USMC, COMMANDER, 
                  MARINE CORPS SYSTEMS COMMAND

    General Brogan. Chairman Taylor, Chairman Smith, Ranking 
Members Akin and Bartlett, distinguished members of the 
subcommittees, thank you for the opportunity to be with you 
this afternoon, and to answer questions concerning Marine Corps 
force protection programs and the Joint Mine Resistant Ambush 
Protected Vehicle program.
    I appreciate, sir, that you are going to enter the written 
statement for the record.
    Your support these last many years in providing necessary 
funding to equip our Marines and the joint force to meet the 
challenges of irregular warfare has been tremendous.
    We work together on a daily basis with our counterparts in 
JIEDDO and the various program executives offices in the Army 
to field just this type of equipment.
    Throughout this conflict, we have fielded numerous 
generations of gear, and have had the opportunity to 
iteratively improve it. That goes for individual body armor 
plates, from the small arms protective insert, to the enhanced 
small arms protective insert and the side SAPI plate; in flame-
resistant gear, from Nomex suits normally worn by combat 
vehicle crewmen, to now having fire-retardant uniforms that 
include antimicrobial, antibacterial, anti-vector properties.
    I very much appreciate your kind remarks regarding the MRAP 
program. As Paul Mann, the program manager, frequently states, 
it is a team sport.
    The leadership of the Congress in providing funding, and to 
the support of the Secretary of Defense, the services, the 
defense agencies and our industrial partners at all levels--
prime, sub, vendor and suppliers--has made that program 
possible.
    Because of that, we have been able to rapidly field these 
vehicles and have a marked impact on the survivability of our 
joint warfighters.
    I would only ask that we recognize this is an open hearing. 
And though the topic is very important, some of the matters in 
force protection would go into classified areas. We do not want 
to broach that. We also, sir, would not like to discuss 
specific capabilities or limitations of the equipment in an 
open session.
    This nation has fielded the best-equipped, best-protected 
force in its history, largely due to the support of the 
Congress.
    And finally, sir, on a personal note, this is likely my 
last appearance in front of these committees as the commander 
of Marine Corps Systems Command. I very much appreciate the 
access that you have provided me and the patience you have 
afforded me, and I look forward to your questions.
    [The prepared statement of General Brogan can be found in 
the Appendix on page 66.]
    Mr. Taylor. The Chair thanks the gentleman.
    The Chair now recognizes Ms. Davi D'Agostino. I hope that 
is correct.

STATEMENT OF DAVI M. D'AGOSTINO, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. D'Agostino. You did a great job. Thank you.
    Chairman Taylor, Chairman Smith, members of the 
subcommittees, thank you for having me here today to discuss 
GAO's January 2010 report on DOD's intelligence, surveillance 
and reconnaissance, or ISR, processing, exploitation and 
dissemination or sharing capabilities.
    There has been a dramatic increase, as you know, in demand 
for ISR systems to collect intelligence in Iraq and 
Afghanistan, to a point where DOD now has more than 6,800 
unmanned aircraft systems alone.
    ISR is also seen as the first line of defense for U.S. and 
allied forces against insurgent attacks and roadside bombs. But 
to be useful to the warfighter, after intelligence is 
collected, it must be analyzed and shared with all those who 
need it in a timely manner.
    The presentation board beside me shows the intelligence 
data processing cycle. And you should have a sheet in your 
briefing book that shows that, too, up close.
    This processing cycle is commonly described in five 
interconnected phases. At the front end you have, first, 
planning and direction, and second, collection. At the back end 
you have, third, processing and exploitation; fourth, 
dissemination; and fifth, evaluation and feedback.
    My testimony today focuses on phases three and four of the 
cycle, or the back end of the cycle, that transforms the 
collected data into useable intelligence for the force.
    Today I will discuss, first, the challenges DOD faces in 
processing, exploiting and disseminating the information 
collected by ISR systems, and the extent to which DOD has 
developed the capabilities needed to share the information. We 
have reported on DOD's challenges with ISR integration, 
requirements and tasking of collection assets.
    For this report, we spent 16 months obtaining and analyzing 
documentation from the Under Secretary of Defense for 
Intelligence, all four military services, the ISR Task Force, 
Joint Forces Command, Central Command, the National Security 
Agency and the National Geospatial-Intelligence Agency. We also 
traveled to several locations in Iraq and the United States to 
observe the processing of ISR data firsthand.
    We found that the military services and defense agencies 
face longstanding challenges with processing, exploiting and 
disseminating the ISR data they collect.
    First, the dramatic increase in collection has not been 
accompanied by an increase in processing capabilities, and 
these capabilities are now overwhelmed. As General Deptula, the 
Air Force's ISR chief, recently stated, in the not too distant 
future, the department will be swimming in sensors, and it 
needs to ensure that we do not end up drowning in data.
    Second, transmitting ISR data requires high-capacity 
bandwidth for communications, which can be extremely limited in 
theater.
    Third, analyst shortages, including linguists, hamper DOD's 
ability to exploit all the ISR information being collected. For 
example, Central Command officials told us they exploit less 
than one-half of the signals intercepts collected from the 
Predator.
    DOD has begun some initiatives to try to deal with these 
issues, but it is too soon to tell whether or not the efforts 
will result in measurable improvements.
    DOD is also trying to improve the sharing of intelligence 
information through a family of interoperable systems called 
the Distributed Common Ground Surface System, or DCGS. DOD has 
directed the services to transition to DCGS, but each service 
is at a different stage in doing so.
    Further, to facilitate the sharing of ISR data on this 
system, DOD developed common information standards and 
protocols. A key problem for all of this is that the legacy ISR 
systems, the older systems, do not automatically tag data for 
sharing with certain key information, like location and time. 
And the services are also not prioritizing the data that should 
be tagged.
    The services have expressed concern to us that DOD has not 
developed overarching guidance or a concept of operation that 
provides them needed direction and priorities for sharing 
intelligence information. As a result, we recommended in our 
report that DOD develop such guidance, and that the services 
then develop plans with timelines, and prioritize and identify 
the types of ISR data they will share consistent with the 
overarching guidance. DOD agreed with our recommendations.
    And while my testimony has been focused on the back end of 
the intelligence cycle, our prior work for this committee has 
shown that there are also problems on the front end. In 
theater, collection taskings are fragmented, and visibility 
into how ISR systems are being used, both within and across 
domains, is lacking. And all of these challenges combine to 
increase the risk that the operational commanders on the ground 
may not be receiving mission-critical ISR information, which 
can also create the perception that additional collection 
assets are needed to fill gaps.
    Mr. Chairman, members of the subcommittees, this concludes 
my oral summary. I would be happy to answer any questions you 
may have.
    [The prepared statement of Ms. D'Agostino can be found in 
the Appendix on page 84.]
    Mr. Taylor. The Chair thanks the gentlewoman.
    The Chair now recognizes the chairman of the Air and Land 
Forces Subcommittee, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    General Oates, I will start with you on the JIEDDO process. 
When this originally came up, certainly, in our response to the 
problems that we had in Iraq, it was, you know, multifaceted 
and an evolving threat in Iraq, and now in Afghanistan, as 
well. And JIEDDO was stood up to try to grab every corner of 
that and do everything we could to respond to that threat. And 
there are many, many different pieces of it.
    There have been some concerns on behalf of the committee 
and others about the way that money has come together, how well 
organized and well structured JIEDDO is, because there is a 
bunch of different ideas floating around out there. It is 
everything from, you know, individual, certainly--you know, 
body protection for our troops. It is the vehicles that they 
are in, you know, a variety of different other countermeasures 
that we have employed.
    And I think there have been some concerns in terms of 
keeping track of the money and whether or not it is being well 
spent and well organized. I know you have made statements that 
that is a priority of yours, to make sure that you get that 
organized and structured.
    I was wondering if you could just take a moment to sort of 
walk us through how that has improved and, you know, improve 
our confidence that the money and the resources are going to 
their absolute best use in terms of defeating the threat.
    General Oates. Thank you, Congressman. It is an interest of 
mine in two areas. One is full accountability. I do know that 
we are the stewards of the government's money, and I want to 
make sure that that is not opaque to anyone, especially the 
Congress.
    The second is transparency with our other partners. That 
would include the services, the other combatant commanders, as 
well.
    Let me first start at the process. There are a great number 
of good ideas. Those are generally filtered by the combatant 
commander, and, as you know, comes forward with a Joint Urgent 
Operational Needs Statement [JUONS]. That is screened by the 
combatant commander and the Joint Chiefs of Staff. And not all 
of those come to JIEDDO.
    We are generally the first stop, if it is a largely IED-
related issue, or there is a requirement to respond very 
quickly. So, in our budgeting, we actually set aside about 20 
percent of our budget every year for that emerging enemy 
technique or capability gap that appears that we did not 
anticipate.
    I receive my priorities from the Deputy Secretary of 
Defense and the Secretary of Defense. And he has just shifted 
mine recently, on becoming the director, to the Afghanistan 
surge. And so, we have appropriately assigned our funding 
towards meeting the capability gaps and JUONS that have come 
out of Central Command.
    Mr. Smith. How do you measure the effectiveness of what you 
do? And it is hard, I know, because we are certainly not going 
to stop the IED threat no matter how we do it. But how do you 
measure whether or not a given idea and a given amount of money 
spent on that idea actually worked or it did not?
    General Oates. Sir, let me take that in just a second. I 
want to conclude by reminding you that we do provide monthly 
reports, if not more frequent, to the oversight committees to 
ensure there is absolutely transparency on the spending of our 
money. And I am very confident that we can account for it.
    This is a very difficult challenge, establishing measures 
of effectiveness against dollars spent in this particular 
realm, so there are some objective tenets that we use. We 
actually look at the total number of IEDs, those that are 
effective, how many and what type of IEDs render a resultant 
casualty or killed. And we can draw some analogies to money 
that we put into force protection, how much more energy is 
required by the enemy to inflict a casualty, for instance.
    There are subjective tests, largely in the area of 
training. And we rely on our troop commanders and their non-
commissioned officers, in particular, to inform us about what 
training is required and what might be effective.
    And most recently, in my short time as the director, I had 
a chance to see some, what you would call good ideas, 
developmental ideas in simulated air training, which we know 
intuitively from having been in the fight now for a number of 
years, will bring dividends, save our soldiers and deny the 
enemy access to our soldiers.
    But this is a major challenge, is trying to establish 
concrete, objective measures of effectiveness against the money 
that is spent, sir.
    Mr. Smith. Have you found that the challenges are 
significantly different in Afghanistan than in Iraq? Or is it 
pretty much the same battle?
    General Oates. Sir, the battle writ large against the IED 
is fairly similar, but the methods employed and the type of IED 
is very different, as is the terrain in Afghanistan. I would be 
happy to elaborate if you would like me to.
    Mr. Smith. You can, if you want. Actually, I would love it 
if your staff could just give a statement on that. I have taken 
up quite a bit of time. I do have a couple of other questions, 
but I will wait until the next go-around, to give some of my 
colleagues a chance.
    But I would be interested if your staff could provide some 
information on how they see the threat different and the 
response different as it is shifting more to Afghanistan. 
Obviously, it is still a problem in Iraq, but it is certainly a 
growing threat in Afghanistan.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Smith.
    And just for everyone's information, I made the decision, 
for Chairman Smith and the two ranking members, we will not 
have a 5-minute rule. But I would remind you that we are 
expected to have votes sometime around 3:15.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    First of all, General Oates, my understanding is there were 
some people that were critical about resources and what we were 
doing with your organization. You had a chance, as I understand 
it, to kind of read over that.
    You have been a user of the services. Now you are charged 
with trying to provide the same services you were using in the 
past.
    Are there some structural things that you have wanted to 
change about how you approach the problem, or anything? Or is 
it just kind of an ongoing management situation? Or what has 
been your perspective moving from user to first in charge?
    General Oates. Thank you, sir.
    I have been a tactical customer of JIEDDO now for about 6 
years. Over three tours in Iraq, I did not always know where 
the capability and benefits were coming from. I have a clear 
vision of that now.
    And I would like to take this opportunity to thank the 
Congress for what it has done for my soldiers, both in the 
101st and the 10th Mountain Division.
    Now, from my perspective as the director of JIEDDO, one of 
my key concerns is ensuring that we provide a good response to 
the Congress about these particular lines of operation, whether 
they are adequately funded, whether we need to make any 
changes.
    And defeating the device, largely focused on some 
technology developments and detect, attacking the network is an 
area that really is difficult to establish measures of 
effectiveness, going back to the chairman's question, and train 
the force, which in my experience has been the greatest return 
on investment, and an area where, as the chairman alluded 
earlier with the MRAP, providing quality training for soldiers 
in all three of those domains--defeating the device, attacking 
the network and, in fact, training in this environment--will 
return great dividends.
    I am not prepared at this point to give you a very specific 
answer on whether adjustments need to be made. We are 
adequately funded at this point, sir. The funding has been 
provided by the Congress that is allowing us to meet these very 
urgent capability gap requirements that have come out of 
Afghanistan. And we believe that we can handle them at this 
point.
    Mr. Akin. Thank you.
    And then, the second question over to the loop, or the 
intelligence data processing cycle, and being able to process 
all of the--we are picking up so many--our sensors are so good.
    Have you seen an approach of what has to be done to process 
the data? Or do you have any suggestions along that line? Or 
what is our plan to be able to process as well as to collect?
    Ms. D'Agostino. Yes, one of the challenges I think they 
have had is the problem of tagging this data automatically. If 
it is not automatically tagged, either on board the system or 
at the ground stations, it has to be done somehow--maybe by 
hand or by some kind of adaptor or with a computer.
    So, it would take time away from the soldier's main 
mission. So, it creates a difficult problem.
    And if it is not tagged, then it is not discoverable by 
other people. Even if it is put up onto a DSIG, it is not 
discoverable without being tagged.
    So, I think that is probably the most pivotal problem that 
they face in being able to share----
    Mr. Akin. I did not understand a word you just said--tagged 
and discoverable. And those are not my normal vocabulary.
    Ms. D'Agostino. Okay. It is like when you take a picture 
with your digital camera, it has a date on it. And when you 
load it onto your computer, you can find your digital photos by 
date. If it does not have any tag on it, there is no way to 
find it for you.
    So, this is part of the problem with----
    Mr. Akin. So, it is a classification, how to identify 
information.
    Ms. D'Agostino. Right. It is how to locate it. It is like 
giving it a name. And without the names, there is no way for 
somebody to discover it and then use it. So, that is----
    Mr. Akin. So, how do we name it, then?
    Ms. D'Agostino. Well, there are requirements that the data 
be tagged. But the problem is, some of the older systems do not 
have the capability to automatically do that. And therefore, 
some unknown amount of the data that we are collecting right 
now in theater cannot be shared in its form that it comes off 
the platform.
    Mr. Akin. I would think that you would want a date and a 
location, would you not? Would those two be the main things 
that you are looking for?
    Ms. D'Agostino. Right.
    Mr. Akin. Because if somebody does an IED, you want to run 
time backwards----
    Ms. D'Agostino. And the time----
    Mr. Akin [continuing]. Two days and see who has been there.
    Ms. D'Agostino. There are these standards and protocols, 
and also rules that have been made about the kind of tagged 
data that you put on when you tag it. General Brogan is going, 
``yes, yes.''
    But it is important to get that onto the data, so that 
other people can find it and use it, and benefit from it.
    Mr. Akin. So, it is a classification kind of thing.
    General Brogan, you want to comment?
    General Brogan. It is not really a classification in the 
sense of confidential, secret, top secret. It is more of 
identification by date, time and location, sir.
    Mr. Akin. And that allows you, then, if something occurs, 
you can go back and take a look at what you might have seen? 
License plates or----
    General Brogan. Well, it makes it database searchable. And 
so, particularly if you are looking at the same area in 
multiple scans, you can look for differences. You know, were 
there disturbances that were not there previously, to help 
identify the locations of the IEDs, sir.
    Mr. Akin. Good.
    Thank you, Mr. Chairman.
    Mr. Taylor. The Chair thanks the gentleman.
    We would now recognize the ranking member of Air and Land, 
Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I have two questions. The first is for General Fuller and 
General Brogan. The second is for General Fuller.
    General Fuller and General Brogan, I continue to be very 
concerned about the short-term and long-term effects on our 
soldiers and Marines in regards to the total weight of the 
individual equipment that they are carrying in Afghanistan. As 
you know, in Vietnam the average weight was 30 to 40 pounds. 
Today they are carrying 90 to 100 pounds, and sometimes even 
more than that.
    Obviously, body armor is a major part of that weight 
increase. And I understand that we have modular and--designs 
that can help with this issue. And certainly, every pound that 
we can reduce this weight count.
    But in the mid to long term, what are we doing to 
incentivize industry to lower this weight?
    For example, what would it take, assuming an ESAPI level of 
protection to reduce the weight of body armor by, say, 50 
percent in less than 5 years? Have we even asked industry 
something along these lines?
    And General Fuller, as you know, the Army and the 
Department of Defense have recently started a new round of body 
armor testing to help establish a standard testing protocol 
with a specific focus on statistical analysis and statistical 
confidence levels.
    We briefly discussed this in my office a couple of weeks 
ago. Can you explain this testing, give us an update on the 
progress of the testing, and explain what you hope to achieve 
with the results?
    Thank you.
    General Brogan. Sir, you are absolutely right. The weight 
is significant. The long-term impact is currently unknown. We 
have not seen a marked increase in injuries to our Marines 
during training or during their combat operations, but we do 
not know the long-term impact.
    The answer to the question, we do communicate with industry 
in a number of forums in all of my public comments. Every 2 
years we hold an advanced planning brief for industry, where 
all of those who do business with the United States Marine 
Corps, and academia, as well as government labs are there. And 
we lay out for them what our priorities are.
    The commandant and the commanding general of the Marine 
Corps Combat Development Command have all indicated that 
reducing the weight is important.
    I believe the most significant thing we need, though, sir, 
is a materials breakthrough. We have nothing better than the 
ceramic plates that we are currently using with the attendant 
weight that goes with them. We need a materials science 
advance.
    And to that end, the commandant, in his guidance for the 
planning of POM [Program Objective Memorandum] 2012 has 
directed that our S&T funding be fenced. If we have bills to 
pay corporately throughout the institution, we are not 
permitted to reach into those science and technology accounts 
to get the money. Much of that money is not run by my command; 
it is handled by the Office of Naval Research, or the Naval 
Research Laboratory and the Marine Corps Warfighting Lab.
    But that is an area where we could certainly use some help 
from our industrial partners.
    Mr. Bartlett. We were advocating, as you know, for a 
specific line for R&D for this. We believe that the potential 
for markedly reducing this weight is there, if industry is 
sufficiently incentivized. We believe that including the 
acquisition of this and the research on this, along with 
underwear and uniforms and helmets, and so forth, is probably 
not the best way to get the best technology out there.
    General Fuller, my first question?
    General Fuller. Yes, sir. As General Brogan said, weight is 
a concern we have with our soldiers. And when we think about 
our soldier, we try not to treat him like they are a Christmas 
tree and we just hang things on them. Body armor is one of 
those elements that we are putting on our soldiers, and we are 
looking at how do we lighten that load.
    We have lightened the load when we fielded them the new, 
improved outer tactical vest. It was three pounds lighter. And 
as General Brogan said, not only are we trying to lighten their 
load, but we are redistributing how that weight was worn by the 
soldier. So, now it is coming off all on their shoulders down 
to their hips where you can distribute and carry that weight 
better.
    We have also looked at, on the soft body armor side, a new 
plate carrier, which we are now fielding into Afghanistan.
    Between a fold-up, improved outer tactical vest and our 
plate carriers, an eight pound delta. That eight pounds is what 
our soldiers are looking for.
    In terms of the hard body armor that you were talking 
about, as General Brogan said, you really need a new 
technology. We are just tweaking the edges of that technology 
right now to refine it, to try to lighten some of that weight.
    But until we have that new breakthrough in science and 
technology, I do not believe our R&D efforts, or even the 
independent research and development efforts of our 
contractors, is going to give us that breakthrough that we need 
to get that lighter weight onto our soldiers. But we treat them 
as a total system.
    You heard General Spoehr talk about we are also providing 
our soldiers with improved lethality. And that lethality is now 
lighter. We are giving them a lighter machine gun, because you 
want to give them the total package--their survivability 
package, their lethality package and also their operating 
environment.
    When we talked, you asked the other question specific to 
what we call our phase two testing.
    Sir, as you are aware, Congress directed that we conduct 
additional testing on our ESAPI, our enhanced small arms and 
protective inserts, and our XSAPI, which is the next generation 
of our protective inserts. We conducted that testing with GAO 
oversight, and also DOT&E [Director of Operational Test and 
Evaluation, Office of the Secretary of Defense] oversight. And 
when we completed that testing, we realized, we have been 
working on--our testing protocol has been one of over-match.
    We take our products and we test them through a round that 
is heavier, harder and faster than any round found in the 
battlefield. And we realized what we were doing is taking that 
capability and giving it great capability, but we do not have 
the statistical confidence that we have of the best body armor. 
We know that it is the best, because of what we hear from our 
soldiers and through the over-match testing.
    So, we are transitioning our testing. We are transitioning 
from over-matched to a statistical confidence basis.
    And we are really pleased to report that we have conducted 
one phase of that testing, where we have taken real plates from 
our soldiers down-range, wearing them. We took them off--we 
gave them other ones--but we took them off their backs, brought 
them back, and we have shot at those plates with real threat 
rounds at a high statistical confidence interval. And we have 
outstanding performance with those plates.
    We are taking another set of plates, doing the same thing. 
And these are going to be brand-new coming off of production 
line.
    So, what we are doing is, I tell everybody we are stepping 
up our game. We have always had quality product. But we are not 
going from bad to good in any of this. We are going from good 
to great.
    And we want to ensure to the American public and to 
Congress and anybody else, we have the best body armor. And now 
we are doing it through a statistical method, so you can 
demonstrate it with high confidence that it is quality product.
    Mr. Bartlett. Mr. Chairman, I would just like the record to 
show, and I would like our witnesses to confirm this. There 
have been some questions about a specific protocol in the 
testing procedures.
    My understanding is that none of that has in any way 
permitted any defective armor to get out to the troops, that 
these were some protocol differences that did not in any way 
impact the quality of the armor that our young men and women 
wear.
    The XSAPI is not yet fielded? Is that correct? It is there 
to be used if needed?
    General Fuller. Yes, sir. The XSAPI product is currently 
listed as contingency stocks. It is available if the threat 
materializes in the theater. And we are watching through 
different intelligence sources very carefully if that threat 
materializes in theater, and it has not.
    It is a heavier plate. The reason we are not fielding it 
now, the threat is not there, and we do not want the soldiers 
to bear the weight of a heavier plate. It is approximately a 
half-pound heavier for each plate to have them have that 
capability, when the plates that we have right now are doing 
the job, as you said.
    We might have had some process issues. We never had any 
challenge with our product. It is quality product.
    Mr. Bartlett. Our fathers and mothers can be assured that 
these differences in testing procedures in no way had any 
impact on the quality of the protection that got out to the 
field to our young men and women. That is a correct statement?
    General Fuller. Yes, sir. That is an absolute correct 
statement.
    Mr. Bartlett. I just want to make sure the record shows 
that, because I want to remove any concern that in any way, any 
armor that was less than what we thought it was got out to our 
young men and women.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor. The Chair recognizes the chairman of the 
Readiness Subcommittee, Mr. Ortiz, for 5 minutes.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thank you so much for joining us today and for your 
service.
    I note that you were touching on the testing of the 
technical vest. But we are buying from two different sources. 
Am I correct?
    General Fuller. In two different sources, you mean between 
the Marine Corps and the Army, sir?
    Mr. Ortiz. Correct.
    General Fuller. We have the same product, sir.
    Mr. Ortiz. It is the same product, but different----
    General Fuller. Different colors, just as we have different 
color of uniforms on today.
    On the plates? Well, when we talk about body armor, sir, 
there are two components. The soft body armor, the same 
ballistic package is inside, different color, and how we might 
attach them. On the hard plates, the Army procures the hard 
body armor plates for all the services, so the Marines are 
getting the exact same plates that the Army or the Air Force or 
the Navy is getting.
    We have currently, we have three vendors building the ESAPI 
plates. And the Army is no longer in the procurement business 
for plates. We have transitioned that for ESAPI plates over to 
DLA, the Defense Logistics Agency. And they are procuring it 
for a sustainment of all services.
    Mr. Ortiz. And the prices are the same for different 
services?
    General Fuller. For the hard plates, yes, sir, because it 
is off of our contract, and they just buy the same thing.
    Mr. Ortiz. I spent some time lately, last year, visiting 
with the troops who were getting ready to deploy. And one of 
the things that the Army was very concerned with was the color 
of the camouflage uniform that they wear. They would much 
rather have like the Marines had.
    Are you gentlemen sharing information with one another to 
see what would be the best uniform for training? Not the 
training, but the goal, they could move--are being shot at.
    Now, have you decided on, the Army at least, on the 
uniform? Are you going to continue to have the same camouflage 
uniforms that you are utilizing today?
    General Fuller. The first part I would like to answer on, 
sir, is the Marines and the Army, General Brogan and myself 
work very closely together. Our teams are working very closely 
on sharing information as to what we are working on. Matter of 
fact, the Marines were in our office yesterday looking at our 
new capabilities and inquiring as to what we are doing and how 
we are doing it.
    We are doing the same thing with Special Operations 
Command. So, the three commands that are operating and 
generating new capability all the time, we are sharing all that 
data.
    Specific to the uniform, the Army has made a decision, 
based on a new methodology that we have developed that we are 
sharing with the Marines and the other services, that we 
believe we need a different color uniform for Afghanistan 
specifically. And we are in the process of generating that 
uniform. We are calling it the MultiCam uniform.
    And when you talk about our uniform, our Army combat 
uniform, I consider it to be two parts. One is the chassis--how 
it is designed, how we wear things such as the Velcro and 
things like that--and the other is the color.
    When we field this new uniform to our troops in 
Afghanistan, not only are we going to change the chassis, we 
get soldier feedback. We are constantly getting input from the 
soldiers, understanding what are the challenges with our 
uniform. So we are making some chassis changes, and we are 
making a color change specific to Afghanistan. And that is 
going to be the MultiCam uniform that will be fielded starting 
in July, sir.
    Now, we did consider, in that process, the Marine Corps 
uniforms. And actually, we had 57 different uniform options 
that we considered. And where we see the Army operating in 
Afghanistan, we believe that this uniform would work the best 
in all of the environments in Afghanistan.
    Mr. Ortiz. How soon before you get them?
    General Fuller. We will start seeing the first uniforms 
available in the July time period, sir, and we will start 
fielding them to the units deploying in August, with major 
brigades going over in August.
    And then we are working carefully with the theater to 
provide that same capability to the soldiers that are in the 
theater, but we are working through with the theater to ensure 
we do not fill up their lines of communications with the 
uniforms when they are also supporting a surge of troops. So, 
we are working on this whole effort real time, sir.
    Mr. Ortiz. One of the things that they were concerned with 
was that the issues were not sufficient, because they wore out 
quicker. And then, if they needed another set, they had to pay 
for them.
    Are you aware of that?
    General Fuller. Sir, I am aware of that. As a matter of 
fact, I received your letter concerning that.
    Two items. One, the uniforms that we issue to our soldiers 
that are used in a combat zone are fire-resistant uniforms. 
They do not wear the same as our regular uniform that you would 
see. They look exactly the same in terms of the chassis and the 
color. They just are different material for fire resistance, so 
they wear differently.
    What we do is provide our soldiers with four of these 
uniforms before they deployed. And as they wear out those 
uniforms, they can go into the supply system and get reissued 
uniforms in theater. So the soldier does not have to pay for 
uniforms when they are in the theater, if they tear them, rip 
them, or whatever they may do to them.
    Mr. Ortiz. You have to hear this, because it was one of the 
main concerns when I spent time with them in Italy.
    Thank you so much.
    Thank you, Mr. Chairman.
    General Brogan. Sir, I would only add that, there are fire-
resistant uniforms, organizational equipment. It is issued to 
the Marines in theater. And then, they wear it out over there, 
they do not have to buy that uniform. They do not wear the 
flame-resistant uniforms when they are back at home station in 
garrison.
    Mr. Ortiz. Thank you so much.
    Mr. Taylor. The Chair recognizes the gentleman from 
California, Mr. Hunter, for 5 minutes.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    The first thing, General Fuller, I just wanted to make you 
aware of something in case you--do you know what the counter 
bomber is, the ECM [Electronic Counter Measure] device called 
counter bomber?
    General Fuller. Not directly. No, sir.
    Mr. Hunter. Low-level radar, has some video. The Marines 
are using it right now. Air Force is using it over there. The 
Army has 12 here in a warehouse that it has yet to deploy.
    General Brogan, do you know what I am talking about here?
    General Brogan. I am familiar with it, sir. And I will tell 
you that it has met with mixed results from the user in 
theater. They are dissatisfied with its performance--too many 
false alarms. And so, we are not----
    Mr. Hunter. Is it better than nothing? Or is----
    General Brogan. It may or may not be.
    Mr. Hunter. Okay.
    General Brogan. Best handled probably offline, sir.
    Mr. Hunter. Okay. Got it. Going with that, the only reason 
I bring this up is not because it is a great device or a bad 
one. It is that the Army has got 12 sitting back here.
    So, they are in a warehouse, and it is kind of--this goes 
along with other things, too, where there are situations where 
we have stuff and we do not--the Army buys it. Different 
services buy it. You know, it could be anybody. And then it 
sits here as opposed to being deployed. There is no plan right 
now from the Army where they want to put them, so they are just 
sitting here.
    This is one of those things that has been fast-tracked, has 
been purchased, has been fast-track testing, and now it is just 
sitting here in a warehouse. There are 12 of them.
    Just so you know, they are here. There are 12 in the U.S. 
in a warehouse that have not been deployed yet. And just to see 
what, you know, if the Army is going to use them at all, or try 
to use them, or try to upgrade them, or whatever. So, that is 
the first thing.
    Second, I want to get down to one more thing just to touch 
base with you. As everybody looks at a new carbine to replace 
the M-4 or replace the upper receiver, or do something with it, 
if we need anything done with it, if at all, if it is down to 
we do want to upgrade it.
    Right now there are only three competitors in our small 
arms industrial base that are listed that can be--that are 
viable options to make the new carbine. There are three of 
them. One makes the Ma Duce .50-cal machine guns, so they are 
out. And then the other two left are the ones that make the M-4 
now, and a foreign company, a Belgian company.
    So, my question is, the Secretary of Defense has the 
ability right now to waive this rule and bring other companies 
in, like the three or four other American small arms 
manufacturers that we have, into this competition. And my 
question is, have you encouraged him to do so, or will you?
    General Fuller. Sir, I understand what you are talking 
about. When we look at both the improved carbine competition, 
that it would be upcoming, and also improving our M-4 in a 
parallel path. We are looking at ensuring we have a full and 
open competition, meaning all vendors can come forward.
    Recognizing that the current language would preclude 
potential full and open, we are working through that process 
right now. I cannot say that we have asked--we have not asked 
the Secretary of Defense for a waiver at this time. But we are 
considering that process and how we are going to do that.
    Mr. Hunter. Great. Okay.
    And my last question is for General Oates--something we do 
not talk about too often. We will talk about IEDs and what is 
going on with those.
    I was able to talk with Dr. Ash Carter and General Paxton, 
who lead up the IED Task Force. It is a party of two, and that 
is good, I think, because they were talking about they were 
able to get more MRAPs over there, to do some things to bring 
people's different lanes together, and just get things going 
over faster. And they have Secretary Gates' ear all the time.
    I asked them something yesterday. They did not have an 
answer. I asked General Petraeus this morning--did not have an 
answer. And it is this. Do we own any road in Afghanistan?
    Do we own it? Do we own 20 kilometers? Do we own five 
kilometers? Can we say that we have persistent coverage of any 
road at all, any certain amount where we have ISR, whether it 
is manned or unmanned, watching that road?
    General Oates. Sir, from this distance away from the 
warfight, I would not hazard a guess whether we actually own 
the road, any stretch of it 24 hours a day.
    I do know that there is adequate ISR coverage and force to 
dominate portions of the road when they operate on them. But I, 
quite frankly, have not looked at how many kilometers that is.
    My first visit to Afghanistan was a couple of weeks ago, 
and I was struck by the difference in Afghanistan versus Iraq 
in terms of how much unpaved road there is and the extreme 
peril of operating, especially in the east and the north--
extreme fall-offs on either side and a twice as large country 
from Iraq.
    I think----
    Mr. Hunter. But less road than Iraq, less ASRs [Alternate 
Supply Routes], less MSRs [Major Supply Routes]. You only have 
one quarter of the ring road from RC-South [Regional Command-
South] to Nangarhar you have got to cover.
    General Oates. I would agree with you--obviously, less 
paved road. But I could not give you an answer on how much we 
actually control day to day, sir.
    Mr. Hunter. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Taylor. The Chair recognizes the gentlewoman from 
Maryland, Ms. Tsongas.
    Ms. Tsongas. Massachusetts, excuse me.
    Mr. Taylor. I am sorry, Massachusetts. My apologies.
    Ms. Tsongas. I only say that, because I know General Fuller 
is from Massachusetts, as well, and we are proud of it.
    First, I would like to thank all of our witnesses for being 
here. I appreciate all the time and effort you have not only 
put into this hearing, but that you have put into providing our 
service members with the best force protection equipment 
available. Your efforts truly save lives, and I thank you for 
that.
    General Fuller, as I said, it is nice to see you again. I 
want to commend you and all of our witnesses on the fine work 
that has been done throughout the past 8 years to improve 
soldiers' survivability on the battlefield due to improvements 
in body armor.
    The services have come a long way to ensure each and every 
soldier, sailor, airman and Marine has the individual 
protection equipment that they need.
    But there is still far to go, and I still have some 
concerns about how the Department of Defense is going to meet 
the requirements of reduced weight, operationally tailored body 
armor. My primary concern is in the fact that the Department of 
Defense failed to establish separate procurement in RDT&E 
[research, development, test and evaluation] budget line items 
for body armor, as was mandated in last year's National Defense 
Authorization Act.
    And this failure leads to the perception, in spite of what 
you all have been saying here today, that Department of 
Defense, the Army and the Marine Corps are not committed to 
body armor as an investment item. In fact, body armor 
procurement has traditionally been funded through supplemental 
and overseas contingency operations [OCO] funding, and this 
year is no different.
    The Army is requesting $327 million for body armor in OCO, 
while there is no discernible amount requested in the base.
    What is going to happen when there is no more OCO funding 
and the services can longer count on the supplemental funds to 
procure the central protective equipment?
    The lack of commitment to move body armor procurement 
funding into the base is compounded by the fact that the Army 
reported in a hearing we held last week on acquisition and 
modernization that its fiscal year 2011 base budget request for 
modernization of body armor programs is zero dollars.
    By requesting body armor funding solely in the overseas 
contingency operations fund, and by putting practically no 
dollars against research and development for body armor, my 
concern is that services are setting themselves up for a future 
situation where once again our soldiers are deployed for combat 
operations with inadequate and outdated body armor.
    So, now, here are my questions, and I am going to ask 
several.
    First, General Fuller and General Brogan, what is the long-
term investment strategy for providing Army procurement and 
RDT&E? And I know, as we have heard today, the department is 
creating one standard for body armor testing and evaluation, 
and I appreciate your efforts. But what is the Army and the 
Marine Corps and the other services doing to create the same 
synergy of effort when it comes to procurement and research and 
development of body armor?
    If you could, please describe the process you use to 
communicate body armor requirements and performance 
specifications to industry.
    General Fuller. Yes, ma'am. I appreciate your question.
    As we have talked about before, it is a complex issue when 
we talk about our soldier protection.
    We are looking in the Army as to what should be in a 
portfolio associated with our soldier protection. And when we 
talk about that, we look at how do we protect the total soldier 
from their head to toe. And we are looking at the bomb suits, 
the concealable body armor, our hard and soft ballistic armor 
that we were talking about previously, even our fire-resistant 
uniforms and our ballistic underwear.
    We are working with, in the Army and the department, to 
address the language that was in the--address this year's 
language identifying we needed to have a research and 
development and a procurement line. And at this time, we do not 
have it. I recognize that. We are trying to define what should 
be in that line, what components, and then, how much should be 
there.
    In terms of why we are not looking at buying additional 
product in the future, from a procurement perspective, our 
requirements right now in the Army is approximately 966,000 
improved outer tactical vests. And we are reaching the end of 
that procurement. And in terms of our hard ESAPI plates, we 
have procured over 2 million of the ESAPI plates, and we have 
on contract 240,000 of our XSAPI that I talked about as 
contingency stocks.
    So, I believe our soldiers are covered. But I do recognize 
we need to think, where are we going to go in the future when 
we want to have a new capability, and how do we fund for that 
when currently we are funding everything through OCO.
    Ms. Tsongas. General Brogan.
    General Brogan. Yes, ma'am. We actually communicate the 
performance specifications to industry. We do that through 
requests for information--can you provide this capability--
requests for quotations, which is how much would it be, what in 
your production capacities, that sort of information.
    And then, when there is an actual decision to buy, it is a 
request for procurement. Tell us in a proposal how much it 
would be, what your production capacity would be, the rates, 
delivery schedules, and things like that. So, those are the 
performance specifications.
    With respect to purchasing, you are absolutely correct. We 
have purchased a large amount of this equipment with the 
overseas contingency operation funding, and the supplementals 
prior to that.
    As General Fuller has said, we now have in our possession 
the required quantities. However, the soft body armor wears out 
roughly every 3 years. It has not met the investment threshold 
to be funded through a procurement line. We have funded that 
through an operations and maintenance line.
    And as I mentioned, we have iterated. We started the 
conflict with the outer tactical vest. Based on feedback from 
the user in theater, we went to the modular tactical vest, 
which addressed a number of the deficiencies. And now, we have 
designed in the U.S. government improved modular tactical vest. 
And we have given that specification to industry to build to 
print.
    So, we own the technical data package for that, and 
industry is making it to our specifications.
    Aligned with that is the plate carrier, the smaller vest 
that does not have the extra soft armor. That reduces the 
weight being carried by the Marine in theater. We also own that 
design. It is interoperable, so the accoutrements that go with 
the improved module tactical vest can be moved back and forth 
between the plate carrier and the IMTV.
    I mentioned, to an earlier question, how we communicate 
generally with industry, and that our 6-1s, 6-2, research and 
development lines are handled by the Office of Naval Research 
and by the Naval Research Laboratory.
    Ms. Tsongas. Thank you for your testimony.
    Mr. Taylor. The Chair recognizes the gentleman from 
Colorado, Mr. Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    The preponderance of our casualties are in Afghanistan now. 
And I believe that the preponderance of those are due to IED 
roadside bombs.
    Recently in Afghanistan, it is my understanding that the 
government there outlawed ammonium nitrate, and that ammonium 
nitrate is a primary ingredient in Afghanistan for the making 
of IEDs, unlike, I think, in Iraq, where it was old munitions, 
mortar artillery rounds were a primary source for the IEDs 
there.
    What impact--and I understand that north of 90 percent of 
the ammonium nitrate in Afghanistan was used for the making, 
actually, of IEDs--what impact does this outlawing, or this ban 
on ammonium nitrate in Afghanistan, if I am correct in that, 
have in a reduction of IED capability?
    General Oates. Sir, thanks. That is a great question.
    As a point of clarification, ammonium nitrate actually has 
some beneficial uses in Afghanistan and every other country for 
road preparation and mining, to some degree. But President 
Karzai did--at some insistence on our part--ban ammonium 
nitrate.
    I believe, and I think the command currently assesses, that 
will have an impact, a favorable impact, on the availability of 
this fertilizer to be used as an explosive device.
    We also have a challenge with potassium chlorate, which is 
used to make matches. It comes out of facilities in Pakistan, 
as well, for perfectly legitimate reasons, but can be converted 
to explosive capability.
    So, the short answer to your question is, the enemy has 
shown us in Iraq, and is showing us in Afghanistan, that they 
are adaptive. Were we to go take away all the ammonium nitrate, 
they would shift somewhere else.
    And so, while it is a good step, and it will have good 
benefits for protecting our soldiers, airmen, Marines, it is 
not going to close out their options, sir.
    Mr. Coffman. Have we seen any effect that can be traced 
back to this decision at this time, in terms of any kind of 
slow-down or reduction in IED-making capability?
    General Oates. Sir, it is a little early. I do not want to 
misspeak, but I think this ban has been in place for a little 
bit over a month maybe.
    Mr. Coffman. Okay.
    General Oates. And so, I think it is a little premature. 
However, there are indications from our intelligence sources 
that it will have an impact. How much so, we will have to 
gauge.
    Mr. Coffman. Okay. Very well. Thank you.
    In terms of individual force protection equipment, where 
are we at in terms of the next generation of helmet?
    General Brogan. The enhanced combat helmet that you 
mentioned, sir, started as a joint effort between the United 
States Army and the United States Marine Corps. They did the 
first round of research and development, testing. There was 
certainly potential in a new, composite material that we looked 
at.
    We took on, then, the next step of actually putting out the 
request for proposals to industry and awarding a number of 
development contracts for test items.
    When we got those test items in and tested them, they did 
not perform as we had hoped and anticipated. We provided the 
results of those tests back to our industry partners, so that 
they could make the modifications to their designs. And we 
would expect to begin to start receiving the next set of test 
items early this summer, sir.
    Mr. Coffman. Very well.
    Let us see. Could someone go over with me? I know that in 
the ISR area that we have been flooded with data. And I think 
that the primary problem seems to be it is too much information 
coming in, and an inability to sort it in real time in order to 
have an effect on the battlefield.
    Can you tell me what improvements there are in terms of 
managing the information coming in from various ISR platforms?
    Ms. D'Agostino. I can speak to two initiatives that were 
discussed with us during the course of our work for the Air and 
Land Subcommittee. One is the National Security Agency, is 
finding innovative ways to find more linguists to help in 
translating and dealing with the signals intelligence data that 
is being collected.
    And again, you know, these are initiatives that we are 
unable to measure how, you know, how much impact they have.
    In addition, the Air Force has announced plans to add 2,500 
analysts to their corps, to be able to process more, and 
exploit and disseminate more of the data coming off the ISR 
systems.
    So, these are two that we mention in our report and that 
were raised to us. So, people are trying to deal with it, as, 
you know, breaking the back of the back end of the cycle with 
all of this flooding of data.
    But again, you know, it is too early to tell how effective 
these efforts are going to be.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Smith [presiding]. Thank you.
    Mr. Kissell.
    Mr. Kissell. Thank you, gentlemen, and thank you for being 
here today. And I would like to note that, while the apparent 
position to me being near the end of the line and asking 
questions, I do want to allocate--you know, note that I have a 
whole row allocated to me here. [Laughter.]
    So, do not let that kind of show you where I am in 
importance.
    Mr. Smith. The room is a little big. [Laughter.]
    But we are very happy back in Rayburn when we get back 
there.
    Mr. Kissell. Yes, you kind of lose track of who is behind 
you when you are down here.
    Mr. Smith. I did not even see you down there for a couple 
of minutes. [Laughter.]
    Mr. Kissell. Thank you, Mr. Chairman.
    I do have a question. And it is kind of hard to--and 
General Fuller, I think maybe this question would go to you. 
This is a question I normally might run through channels. And I 
am not advocating a particular vendor here.
    But we had a--being that so much of our conversation has 
been about body armor and about can we move ahead to a new 
technology, a new generation--I had a gentleman come to my 
office a while back that was on the cutting edge of science at 
one end of an idea, and using some of the oldest technology 
known to mankind at the other.
    If what he said was true, it would seemingly be a huge step 
forward in the possibility of reducing weight and increasing 
the strength of protection to our people. And he has been 
working with, you know, Department of Defense, and just 
seemingly getting more and more frustrated as he went.
    I am going to ask my military E.A. [Executive Assistant], 
Captain Tim Meadows over here, to get with whoever you would 
like for him to get with. I would like to have a report back 
from you all. Is this a possibility? Is what he is talking 
about realistic? Is it a step forward, a giant step forward as 
he is talking about?
    I am not pushing this vendor. I am just wanting some 
feedback as to--because if it is, then let us pursue it. If it 
is not, then I can just say, I am sorry, this is not what we 
are looking for. But there are some things here that got me 
somewhat curious about what he is offering.
    And General Oates, in the scheme of--and Mr. Bartlett said 
it today, that, you know, the proportion amount of money we 
spend in fighting IEDs and protecting our soldiers versus the 
cost of IEDs. And then also, we have got to keep doing that. We 
have got to protect our soldiers.
    But are we catching up, or are they getting further ahead?
    General Oates. Sir, it is a great question. I actually 
think Iraq might be informative here.
    If we go back and look at what has transpired in Iraq and 
the funding that has come forward to protect our soldiers, but 
also allow us to understand the networks that were engaging us, 
begin to attack them directly, understand the devices and 
defeat a great number of them, the trend lines are fairly 
clear. And we can get back to you on the record on the 
specifics over the years.
    But in aggregate, it took the enemy more IEDs to attack us 
to achieve the same results. And those are all positive trend 
lines, to now, where Iraq does not begin to resemble this year, 
as it did the first time I was there in 2003, and several more 
times after that.
    I do believe that, if we look at the investment provided to 
the services and to JIEDDO, that would directly translate to 
protecting our soldiers and helping us attack the networks over 
there, the results are clear. The difficulty is tying 
individual dollars to, you know, what will 10 more dollars get 
you in terms of effects against the IED. That one is very 
tough.
    And we are going to try and do better, to the chairman's 
question, and try and play back what we believe the reasonable 
measures of effectiveness are. But I think Iraq is informative 
of great success we have had in this area.
    Mr. Kissell. And I do not want to indicate at all that this 
is a monetary issue. We have got to protect our soldiers. I am 
just wondering, you know, are all the technological things we 
are doing, all the efforts we are making, are they getting 
further ahead, or are we catching up in terms of protecting our 
soldiers?
    And I do want to also follow up with what Congressman 
Hunter said about sharing the technologies, and making sure 
that if we have something sitting somewhere because somebody 
has chosen not to use it at that point in time, that we are not 
just ignoring the fact that somebody else might have need for 
it, because there have been a couple of situations brought to 
our attention that we followed up on that that happened. And we 
want to make sure all our assets are being used.
    And I yield back.
    Thank you, Mr. Chairman.
    Mr. Taylor [presiding]. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Wittman, for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    And thank you, panel members, so much for joining us today. 
I appreciate you taking times out of your busy schedule. And 
thank you for your service to our nation.
    General Spoehr, I wanted to ask, at last year's joint 
forces protection hearing, I asked General Lennox about what 
the Army was doing to upgrade our small arms capability, 
specifically in the M-9 pistol and M-4 carbine. In regards to 
the M-9, at that point I cited the findings of a 2006 Center 
for Naval Analysis study of our soldiers and Marines in 
Afghanistan--and also Iraq--who had engaged the enemy with 
their weapons in combat.
    And in that study, 48 percent of the respondents were 
dissatisfied with the M-9 pistol, with 26 percent requesting a 
larger caliber weapon, and 20 percent saying the M-9 should be 
replaced.
    I note that the fiscal year 2011 DOD budget includes new 
start authority for a handgun to replace the M-9, and that the 
requirement may already be JROC approved.
    I was wondering if you could tell us what progress the Army 
has made towards replacing the M-9 with a more powerful, modern 
and feature-rich sidearm. And when can the committee expect an 
RFP [request for proposal] for the new handgun? And what is the 
Army's timeline for fielding the new weapon?
    General Spoehr. Thank you, sir. As you say, there has been 
a new Joint Requirements Oversight Council requirement for a 
pistol approved. It was actually submitted by the Air Force, 
who felt the need for a new pistol. So, that requirement was 
approved.
    We are still examining the requirements in the Army for a 
new pistol. We are aware of the study you mentioned and the 
soldiers' feedback on the pistol.
    In light of their feedback, we have done a couple of key 
improvements for the pistol. We have given them improved 
magazine. And General Fuller's people are going to put new hand 
grips, modular hand grips, to kind of accommodate the variety 
of people's hand sizes for the pistol, because we think that is 
a fair amount of the dissatisfaction with that weapon.
    We are going to look at the Air Force's requirements 
document. They have done a lot of work to get it to this point. 
If we think, and if we believe that that requirement meets the 
Army's requirement, I think you will--you know, we could 
proceed with a program. But no decision has been made yet, sir.
    Mr. Wittman. I know there has been some talk about the 
caliber of the handgun and its stopping power, and people being 
a little concerned about the small caliber that they currently 
have. So, I am assuming that is going to be one of the array of 
issues that you will address in looking at a replacement for 
the M-9?
    General Spoehr. Yes, sir. And as you are aware, stopping 
power is caliber. But there is also a component of ammunition. 
And you have probably heard in recent press reports about 
something called ``green ammunition,'' which we are going to be 
fielding soon for the M-4 carbine--much more stopping power, 
much more, we believe, lethality.
    We think that same technology has applicability over to the 
M-9 pistol. So, as we get done probably with fielding green 
ammo for the carbine, we are going to be looking at importing 
some of that same technology over to the pistol, where it may 
make up for any lethality gaps that they currently have.
    Mr. Wittman. Do you believe some of the concerns with the 
M-4 as far as its range or capability will be taken up with 
this green ammunition? In other words, are the main objections 
to the weapon basically its stopping power? Or are there other 
aspects of the M-4 that are creating challenges for our men and 
women in----
    General Spoehr. Sir, most of the concerns we hear about the 
M-4 have to do with its reliability and how many rounds between 
stoppages--mean rounds between stoppages.
    The carbine as it is now is demonstrating performance well 
beyond its specifications. It was only required to do 600 
rounds between stoppages, and it is demonstrating around 3,600.
    We are looking at improving the carbine, giving it a 
heavier barrel, some other improvements. There have been over 
60 improvements made to the M-4 carbine. But we do not get a 
lot of complaints, frankly, about the M-4 carbine. It has met 
with fairly widespread success.
    I would defer to General Fuller, if you have anything you 
want to add.
    General Fuller. Thank you, sir.
    In light of your question, what would we think about when 
we talk about our M-4 and other weapons is, it is a 
combination. It is the weapon. It is the ammunition. It is the 
optics. It is the training. And then, equally important, it is 
how it interfaces with the soldier.
    And as General Brogan and I work through not hanging things 
onto soldiers, we need to ensure that what we do for body 
armor, for example, does not adversely impact a soldier's 
ability to get a good sight picture on their weapon.
    In light of what General Spoehr was talking about, we are 
looking at improvements to our M-4. But we believe we have 
made, actually, a very recent one that is going to have 
significant impact in the field.
    Where we are doing all the additional testing, we saw that 
the magazine did not reliably feed the ammunition straight up 
into the upper receiver. And we have now fielded a new 
magazine. We have pushed that into the theater. It is now part 
of our rapid fielding initiative, and we are rapidly getting 
that capability out there.
    But we also are getting ready to release a RFP, a request 
for a proposal, that will give us the ability to give the 
soldiers that heavier barrel, so they can have an increased, 
sustained rate of fire. The Army is asking us to look at giving 
them back the fully automatic mode in that M-4. We are also 
looking at changing some of the bolt in the upper receiver 
components. And we are looking at all these different options.
    At the same time we are working on the M-4, we are looking 
at a new carbine. Is there something better out there than what 
we currently have? But we believe the M-4 is a very good--
provides a very good capability to our soldiers. But it is a 
combination.
    And I think the green ammunition is going to give back a 
lot of that lethality that the soldiers were asking about, 
where did it go. Well, it went because we gave you a much 
shorter barrel, a round that was designed on a longer barrel, 
and a lot of other technical components, sir.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Chairman.
    Again, I want to thank all the panel, particularly 
Lieutenant General Oates. I think you, with your combat 
experience in Iraq, you bring--you all bring a lot to this 
conversation, but in particular, your experience.
    General Oates, our nation's ability to deliver vehicles 
that have mine resistance has been a challenge. The Humvee was 
a great vehicle until the enemy discovered it had a 
vulnerability to explosions from beneath it, which resulted in 
the fielding of the mine resistant vehicle.
    The Stryker is a great vehicle. But unfortunately, now that 
the bar has been raised with the introduction of the mine 
resistant vehicle, the Stryker appears to be more vulnerable to 
that problem.
    What steps are you taking to address that? What does this 
committee need to do to help you?
    And above all, what are the lessons that we have learned in 
the development of the MRAP? Again, I always will commend 
General Brogan on a great job that he did, but it is just a sad 
fact that from the time we made up our minds that we were going 
to buy 18,000 MRAPs till they were fielded, people needlessly 
died in Iraq and Afghanistan.
    So, what steps are we taking for a more survivable Stryker? 
What did we learn from the MRAP program, so that we can field 
it quicker than we did, and even though General Brogan did a 
phenomenal job of fielding the MRAP?
    General Oates. Sir, I thank you very much.
    As you know, this is an extremely complex set of 
interdependent variables on a vehicle. Afghanistan, what we 
have learned is, due to the absence of improved roads, that 
there is another significant ingredient to survivability of 
vehicles, and that is the enemy's placement of the IED and, in 
some cases, the inability to go off-road.
    But the Stryker is a very, very survivable vehicle, in my 
opinion. I have been in it and been in combat with it.
    In Afghanistan it has a unique capability, because it can 
go off-road, and it is very quiet. And so, it can seek to avoid 
obvious emplacements of IEDs [Improvised Explosive Devices].
    So, just taking that independent variable, you could 
conclude the Stryker is more survivable, given that the MRAP is 
largely confined to the road, whereas the enemy has a very 
clear attack axis.
    We have studied the process of the MRAP in JIEDDO [Joint 
Improvised Explosive Device Defeat Organization] and looked at 
the evolution and understanding of the V-shape and U-shape 
hulls. And we are working with the MRAP Task Force underneath 
the senior integration group to see what new technologies there 
may be out there that we have not yet explored, and how we 
might offer some assistance to the MRAP Task Force and what we 
discover in our own technological reviews.
    But to date, my major concern is trying to help the forces 
that are in Afghanistan detect these under-body explosions 
where they are located, and seek to defeat them before we drive 
over them. That is my primary focus right now.
    The MRAP Task Force is currently looking at the new set of 
vehicles, and we are a support role there, sir. And we offer 
advice along those roads, but we do not produce the vehicle 
platform itself.
    So, I may have to defer on this issue to my good friend 
down there who does the MRAP business, or understands it better 
than I do.
    Mr. Taylor. Would anyone like to address what steps are 
being taken on the Stryker? It is my understanding that one of 
the manufacturers has come up with a double-V-type bottom.
    The immediate question that I would have is, I believe it 
was General Blum that explained to me that the drivetrain on 
the Humvee had the unintended consequence of shaping the 
charge, where the force of the blast tended to go in the cab 
because of that.
    I guess my first question would be, with that double-V, do 
you get that same problem with the unintended consequence of 
shaping the charge? I guess that would be the apex of where the 
two Vs come together.
    General Spoehr. Yes, sir. As you mentioned, industry has 
come to the Army with a proposal for the Stryker for what we 
call the double-V hull. It is really a W. And we were concerned 
about the same thing you were, that the apex, wouldn't that 
channel all the energy and perhaps even make things worse.
    Industry believes not. They have some actual blast tests. 
They have done modeling, as well. They say, because that apex 
is significantly higher than the floor of the Stryker used to 
be, that the exponential difference in height from the IED 
makes a huge difference in survivability.
    Nevertheless, we are--so, we are going to ask, and we have 
asked OSD [Office of the Secretary of Defense] for permission, 
to build prototypes of this vehicle. And as quickly as get 
those prototypes, we intend to take them up to Aberdeen and 
blow them up, and see for real how this works.
    Mr. Taylor. Well, I guess my next question would be, going 
back to our responsibilities, do you have the financial 
resources--do you have all the financial resources that you 
need to expedite this program?
    General Spoehr. Sir, right now in fiscal year 2010, we 
believe right now we can initiate this effort with no support 
needed from Congress. If that changes, if we develop some need, 
we will immediately come back to this committee.
    Mr. Taylor. General Oates, going back to your observation, 
and since you actually mentioned potassium chloride and 
ammonium nitrate as being part of the problem, I am curious 
how--well, I will make an observation.
    The Center for Remote Sensing from satellites happens to be 
in south Mississippi. One of the things they pointed out to me 
was that from space, looking at extremely slight differences in 
temperatures of trees, they can tell me or you which trees in 
the forest have pine beetles, which trees in the forest are 
stressed for lack of water.
    They can tell you the 10 most likely places to catch 
bluefin tuna, updated every 90 minutes--a number of things that 
are just absolutely remarkable they can tell us from 
information coming from space.
    I would imagine that both ammonium nitrate and potassium 
chloride have to give off vapors. I would imagine they have to 
give off heat.
    To what extent have you just put out the word to industry, 
I need someone to help me find a better way to locate these 
substances when they are in concentrations of 10 pounds or 
more?
    General Oates. Mr. Chairman, it is a great question. And I 
would like to take that one offline with you, only because we 
actually have some pretty good technology right now that we 
believe is going to assist us in detecting these items.
    But we are actively looking for additional assistance in 
both change detection on the road and the detection of the 
actual items. And I would be happy to share with you for the 
record on an emerging technology that we intend to put in 
theater here very soon.
    It actually returns to the point that Congressman Hunter 
made. If we can achieve some persistent surveillance on these 
roads, it will increase our confidence in understanding where 
the enemy is operating and what he is doing with those roads.
    To that end, this is one of the top priorities for Central 
Command, is the emplacement of additional tethered capability 
to survey these roads, much as we used in Iraq. And that is the 
first tranche of items that we have funded and we will be 
moving forward to Afghanistan.
    The technology you are describing, we would be very 
interested in, sir. And we have openly and directly with 
vendors indicated that we would like to close that gap.
    Mr. Taylor. Let me ask you the same question. Do you have--
has this committee and our appropriator counterparts, have they 
provided for you all the resources, financial resources you 
need to pursue this?
    General Oates. Yes, sir. At present, we do not have any 
issues. And like my friend here, and based on what you have 
told me personally, we would return to you immediately, because 
we understand the sense of urgency. If we need additional 
resources, I would not hesitate to come ask for them.
    Mr. Taylor. Lastly--and I will open this up to the panel--
on almost every visit to theater, when you ask the troops what 
is it that you want, what can we get you, almost in every 
instance it comes back. They kind of shuffle their feet and 
say, gee, if you could just make my body armor lighter.
    What sort of resources do you have to pursue that? And 
again, is that--was that adequately addressed in the 
President's budget request? Do you have the resources you need? 
If a manufacturer were to come to you today with a 10 percent 
or 20 percent reduction in that weight, would you have the 
funds available to see if that product is worth purchasing?
    General Fuller. Sir, in light of that question, yes, we 
are. As General Brogan said, we really are at the knee of the 
curve. We are looking for a new technology to be able to get us 
that lighter weight, and in particular to our hard plates.
    If it was found, we would buy it. I do not know how much we 
would buy, but we would be buying it. But we do not have it out 
there right now.
    Mr. Taylor. Okay.
    Again, General Fuller, if it was found, do you have the 
resources available now? Would you need an additional line item 
in the authorization and appropriations bills? I guess that is 
what I would like to know.
    Do you have the authority to pursue that, if you saw a 
product that you liked and thought was worthwhile for the 
troops?
    And General Brogan, if you would like to address that?
    General Brogan. We absolutely have the resources we would 
need to go test it, to see if it was, in fact, better. We 
entertain frequently industry members who think they have an 
idea of what could be a better body armor. Unfortunately, many 
of those are PowerPoint. And that is about how deep they are.
    Very few people bring us actual product that we can go 
shoot and test. But if someone has that, we have the ability 
immediately to go to Aberdeen Test Center and shoot those, and 
determine if it is good enough.
    And then, using our below-threshold reprogramming 
authority, and because on them there is a fungible 
appropriation, we can very easily move that and begin to buy 
it. And then, if we needed significant quantities, we would put 
that in the OCO request either at the beginning of the fiscal 
year, or, like we have often received, the June additional 
money, sir.
    Mr. Taylor. General, can I follow up on that? I happen to 
come from, as most of the members of this committee, a very 
pro-defense community--heck of a lot of National Guardsmen, a 
heck of a lot of people who are serving and have served, and 
therefore, a heck of a lot of moms and dads who follow this 
issue very closely.
    So, if someone were to come to you with a better body 
armor, are you telling me that you have the financial resources 
to not only test it, but to begin acquisition immediately?
    General Brogan. We certainly have to test, and we would 
have the money to begin production. Probably not to outfit the 
entire force, and we would come to you for that. But we do have 
the ability to begin production.
    I have right now on my desk a letter from the father of a 
Marine, who is convinced that NASA [National Aeronautics and 
Space Administration] has an armor that we should be using, 
just because he knows that in space they armor their 
satellites.
    I can tell you, I have personally visited the Jet 
Propulsion Laboratory in California, and looked at what they 
have. And it is not designed to stop bullets. It is designed to 
stop small pieces of junk that are flying at high velocity in 
space.
    And I truly do reach out and try to find a solution, sir.
    Mr. Taylor. Okay. Thank you very much.
    Mr. Smith.
    Mr. Smith. I think I do not have anything much further, 
just to follow up a little bit on the Stryker discussion. We 
have several Stryker brigades out of Fort Lewis in my district. 
And it has received rave reviews from the soldiers coming back 
who have used it, not just in Iraq, but in Afghanistan. And I 
think that is an important point to make that you made, 
General, that its maneuverability really improves its 
survivability.
    And also, the soldiers love it, because it gives them a 
little bit of control of their own destiny. They are not 
counting on a piece of metal below them to save them. They are 
counting on their own ability to foresee danger and react to 
it. And they very much appreciate that.
    I guess the one question I have as we go through on the 
double-V--in the state of Washington I always say W-hull, but 
whatever. You know, as we test it and go forward, number one, 
what we do want to make sure--we want to move as quickly as 
possible, but we want to make sure it works.
    And I know you know that, but it is going to be 
particularly difficult in this instance, because if it does 
work, we are going to want to do it quickly. So we have to be 
really careful about that.
    I have gotten a different answer from a couple of different 
people to this question. If it works and we decide we want to 
do this, however, is the situation that it is not possible to 
retrofit the existing, I think roughly, 2,400 Strykers? That 
the way this is designed, it will have to be built on new 
Strykers? Is that your understanding? If we decide this works, 
we could not go back and put it on the existing fleet?
    General Spoehr. Sir, you are correct. It cannot be 
retrofitted currently. Now, we have asked the question, you 
know, could we hypothetically saw a Stryker and put the top 
back on it? That has not been the case so far.
    And so, fortunately, there is currently an active 
production line from Stryker. So, if this improvement were to 
play out, we would ask the manufacturer to cut this improvement 
in, and so it would become a part of new Strykers coming off 
the line.
    Mr. Smith. And they are very confident that they can do 
that as they go forward. I understand that.
    And then also, you know, just following up the original 
point, if we do this it is important to emphasize that the 
existing Stryker fleet is still very, very useful. And we 
certainly do not want to create the impression, because we have 
a new variant, that the old variant is not still very effective 
for the warfighter.
    We have got 2,400 of them. We want to use them. And from 
all reports, they are performing quite well.
    Thank you. I do not have anything further. I yield back.
    Mr. Taylor. The Chair thanks the gentleman.
    The Chair recognizes Mr. Hunter for 5 minutes.
    Mr. Hunter. Thank you, Mr. Chairman.
    And my little brother is a specialist. He is a Stryker guy 
who is over there in Iraq now, so he is Chairman Smith's 
constituent, he and his family every now and then in Fort 
Lewis. In fact, he is home right now to have his third boy--his 
third baby, first boy. He has got a little three-week leave, 
and then he goes back for six months over to Iraq. So, I want 
to make sure that those Strykers are good to go.
    One thing that I want to bring up that I think is 
important, and I think it is important that JIEDDO remains a 
consistent entity, probably forever, because one thing we have 
not talked about is future wars. The enemy knows how to get to 
us now. It is IEDs.
    So, if you look at the level of IED in Afghanistan, think 
of what Iran could do with their level of sophistication. Think 
of what China could do, or a country that is not a backwoods 
spot like Afghanistan. The enemy knows how to do it now. It is 
going to be a threat to us forever, because we have not been 
able to actually defeat IEDs.
    So, I think this is something that we are going to have to 
keep in mind forever. When it comes to warfare, why go line-to-
line with us when you can just IED the hell out of us forever, 
whenever we are in someone else's territory?
    So, I think this is something that, even when Afghanistan 
dies down, it is going to be up to us here, and to you all to 
ask for it, for us to maintain this persistence when it comes 
to IEDs, because we are going to see it forever. And we are 
going to see it in 20 years or 30 years. They are going to say, 
hey, look at Afghanistan and Iraq; we know how to do this.
    But my last question for General Oates, you wrote here in 
your testimony, ``In the last several months Task Force ODIN 
has been supplemented with U.S. Air Force Liberty aircraft to 
good effect. We are not where we need to be yet on this 
capability but are rapidly moving to close this gap.''
    Do you have metrics? I mean, how do you know ODIN's 
working? Have IEDs gone down where it has been flying? Have we 
been killing guys, or what?
    General Oates. Yes, sir. Colonel Don Galli, who commands 
3rd Cav, and I go back about 20 years. And I was in Iraq when 
ODIN [Observe, Detect, Identify and Neutralize (U.S. military 
task force)] was started. I am a big fan of it.
    We did not have Liberty in Iraq. Now there is Liberty in 
Afghanistan. And they are roughly half-way through their 
intended fielding--I am sorry, about a third of the way through 
their intended fielding--of Liberty.
    I have actual metrics I can share with you, that I will 
take for the record, on the effects we have had with ODIN.
    [The information referred to is classified and retained in 
the committee files.]
    General Oates. A problem to date is, ODIN has been carrying 
the load for the whole country. Now, with about 7 Liberty 
aircraft and about 14 more to come, maybe 15 more, I think they 
will be able to expand that coverage.
    There is a direct, compelling corollary between integrating 
air assets like ODIN or Liberty with a maneuver force toward 
success on defeating the IED threat.
    Mr. Hunter. Let me interrupt you there. Is Liberty 
integrating like ODIN does? Or is it being used as the Air 
Force uses Predators, using Pred lines based on priorities? Or 
is it being used--that sensor-to-shooter ODIN relationship that 
made ODIN so effective--is it being used that way?
    General Oates. No, sir. ODIN resides inside the combat 
aviation brigade. And it is a very tight link with the maneuver 
force.
    Liberty, though, is following the priorities of the ground 
commander. And so, although it does not work directly inside a 
U.S. Army combat aviation brigade, it does respond to the 
ground commander's priorities.
    The way the Air Force and the Army and the Marine Corps 
utilize their aviation assets, you know, is somewhat different. 
We really look at effects.
    I personally believe that the additional assets of Liberty 
will generate those effects we are looking for. But the command 
and control structure is different. There is no doubt about 
that, sir.
    Mr. Hunter. Would you recommend that the Army have tactical 
control of Liberty, as it is intermixed with ODIN?
    General Oates. Sir, I do not dodge many questions, and I am 
not dodging this one, but I do believe that is the inherent 
authority of the commander in Afghanistan to determine how he 
wants to command and control those assets. I will defer to his 
judgment.
    Mr. Hunter. Okay. How about this? As a division commander 
in Iraq, would you have rather had control of the air assets 
that are watching your roads and your rail? Or would you rather 
have a different service provide that for you?
    General Oates. Sir, as a division commander in Iraq, I had 
control of the air assets that operated in my area. But I also 
received assets based on priorities. So, as a ground maneuver 
guy, I have always been more comfortable by culture having an 
air-ground team under my direct control.
    But when I was the priority effort in Iraq, I received 
additional assets. And I think sometimes that that is not quite 
understood. I receive actually more assets if I am the 
priority. And there again, that goes to the ground commander.
    So, I have full faith and confidence the guys over there 
know what they are doing. And if they need to make a change--
and incidentally, they have made a change to the command and 
control relationships of the engineer route clearance teams, 
based on an observation that they should be in direct support, 
not in general support. And we can show you a direct corollary 
to improve in that regard. But the commanders in country made 
that call.
    Mr. Hunter. I would love to see those metrics, too.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Taylor. The gentlewoman from Massachusetts, Ms. 
Tsongas.
    Ms. Tsongas. Thank you.
    General Brogan and General Fuller, as you can see, the 
issue of body armor is a consistent theme here. And I have one 
more question before we head out to vote.
    Those of you who have testified to the fact that you feel, 
as far as procurement goes, you have the right amount of body 
armor to support the force. You also said, when asked about 
lighter-weight body armor, that the technology just is not 
there to reduce the weight of the small arms protective insert.
    And so, we find ourselves in a dilemma. Industry is now 
saying that, because the services have almost stopped buying 
body armor, they no longer have the internally generated funds 
to continue development of lighter-weight products. And the 
number of firms who supply body armor and its ceramic tile 
components is being reduced, due to the lack of procurement.
    So, how do we balance this? You are not really buying body 
armor, which leads to the industrial base shrinking. There is 
no investment from DOD in research and development. And now, 
the industrial base is not putting its own money into research 
and development, because it does not have any.
    You are saying the technology just is not there to reduce 
the weight of body armor, but it does not seem like anyone is 
actively investing in technology.
    So, where do we go from here, given those realities?
    General Fuller. Yes, ma'am. You do share the challenge that 
we have inside the Department of Defense right now.
    Because we had such large procurements, we did have the 
industry invest their own IR&D [industry research and 
development], recognizing that they had an opportunity to have 
a large procurement to balance that investment that they have 
made.
    What we are trying to do right now is bundle all of our 
sustainment contracts together under the Defense Logistics 
Agency between the Marines, the Army, Air Force and other 
services, to ensure while we are working through this action 
of, do we have a research and development line dedicated to 
soldier protection items, that we at least maintain that 
industrial base.
    So, if we wanted to go and contract with them for a 
research and development future activities, they will still be 
in the business of wanting to do this.
    At the same time, we are still working those S&T [science 
and technology] endeavors. When we had the question about the 
enhanced combat helmet, for example, that technology actually 
started in the MRAP and other heavy armor combat vehicles. It 
was part of the add-on armor that we were using that new 
technology. We are now taking it and trying to conform it into 
a new helmet design, and that is where we are having some 
challenges. It works great in flat sheets; it does not work as 
well when we conform it.
    So, those S&T efforts, I think, will continue to move 
forward. We still are investing in that arena, and we might see 
some future efforts coming out of that.
    But I recognize, we do need to look at a dedicated research 
and development line. We are going to work with the other 
services and the Department of Defense to articulate what 
exactly is in that line, and how much is in that line. And 
while we are doing it, we are going to try to maintain that 
industrial base through bundling all our contracts to keep them 
viable.
    Ms. Tsongas. General Brogan.
    General Brogan. Congresswoman, what I would add is that, at 
least one of the vendors that you mentioned is one of the five 
largest defense contractors in the United States. It is kind of 
difficult for me to believe that they do not have any IR&D. 
They may not place it here, because they do not see the largest 
return on investment as compared to some of their other 
efforts.
    As General Fuller said, we do have to have S&T dollars to 
look for the breakthrough. It's not, I think, valuable for us 
to continue to buy ceramic plates in large excess of what we 
need, just to keep the industrial base doing plates. Because, 
if we find that breakthrough in technology, we are going to 
want to buy that next best thing, and we will have created an 
obsolete item that we spent the taxpayers' money on. So, it is 
a challenge how to adequately balance it.
    I think we need significant communication between us and 
industry, as opposed to lobbyists and you all. Them talking 
with us would be valuable. And we have provided them in our 
public communication for the desires of what it is we need, so 
that we can help them target those IR&D funds.
    The other not often used research and development tool is 
something called a CRADA--a cooperative research and 
development activity--where the U.S. government and industry 
cooperatively develop a piece of the equipment. And I think we 
probably need to explore that in this area.
    Ms. Tsongas. Thank you both for your testimony.
    Mr. Taylor. The gentleman from Colorado, Mr. Coffman. And I 
would remind the gentleman that there are about 6 minutes left 
on this vote.
    Mr. Coffman. Thank you, Mr. Chairman.
    I have just one quick question. And that is, sometimes 
there is an IED, a blast, where it is not a catastrophic kill 
for the vehicle. But because of the over-pressure, it causes 
casualties, if I understand it right. Have we been able to make 
any gains in terms of force protection relative to the over-
pressure from a blast?
    General Brogan. That most likely happens in an up-armored 
High Mobility Multipurpose Wheeled Vehicle [UAH], where the 
survivability capsule is, in fact, perforated. And 
unfortunately, as we know, the UAH is often a catastrophic 
kill. What we find most often in MRAP is that we keep the blast 
over-pressure outside of the survivability capsule.
    Now, injuries are the result of acceleration, not blast 
over-pressure. So, first, the vehicle is accelerated up into 
the air by the force of the blast. That happens very rapidly 
and causes compression injuries of the spinal column and of the 
lower back.
    And then, second, that vehicle impacts the ground, which is 
a slower event relatively speaking, similar to an automotive 
crash. And we have energy-absorbing seats to try to deal with 
that.
    The unfortunate thing, and I think what you are getting at, 
Mr. Coffman, is traumatic brain injuries. Those are not 
normally caused by blast over-pressure. It is that acceleration 
event that causes the head to rapidly twist, and so, either 
shearing the curves inside the brain, or the brain moves slower 
than the skull. The skull stops. The brain then impacts the 
skull causing bruising, swelling, or, if it happens to the 
central cortex, loss of consciousness.
    No helmet is able to protect against that. And because our 
occupants of the vehicles need to be able to scan, use the 
windows, we cannot tether their head like they would in a 
NASCAR. So, what we are looking for are ways to improve the 
seating and restraint system to help decouple the acceleration 
experienced by the vehicle from that which is delivered to the 
occupants.
    General Fuller. Sir, also in light of that, the Army is 
fielding a helmet sensor. We had a generation alone that we 
fielded. And what we are trying to do is measure what is 
happening to that individual when they do have any type of 
traumatic event, so we can capture that data, provide it back 
to the medical community.
    So, as General Brogan was talking specifically about the 
medical conditions that are happening while you are going 
through this traumatic event, we want to be able to provide 
that data back to the Army medical community, so they can 
assist in understanding what is actually happening. And we are 
measuring it through a new helmet sensor that we will have that 
will measure what is happening, and then are full axis to the 
soldier's head via their helmet when the event is going on.
    And we are getting ready to field that capability. We had 
an initial capability out there. Now we are getting ready to 
field an upgraded one--longer battery life. You do not have to 
go up there and touch every helmet to get the data off it. We 
can do it remotely.
    And it also can measure more axis of movement, really what 
your head is really doing inside that helmet--six degrees of 
freedom, sir.
    Mr. Coffman. I would appreciate it, if you have a written 
description of what you just mentioned, I would appreciate if 
you could get that to myself and maybe other members of the 
committee.
    Thank you, Mr. Chairman. I yield back.
    [The information referred to was not available at the time 
of printing.]
    Mr. Taylor. Mr. Bartlett, there are about 4 minutes left, 
but I am going to verbally honor Ms. Sandra Day O'Connor. I do 
not think I have to----
    Mr. Bartlett. I have a very quick comment. I think it is 
unlikely that we are going to be purchasing body armor from 
some big industry that has the capacity, the capital to invest 
in R&D [research and development], which is why we need the 
dedicated R&D line, because I think the creativity and 
innovation is going to be in small business. And they just do 
not have the capital to do that. We need to help.
    Mr. Taylor. Gentlemen, I thank each and every one of you 
for what you do, for your service in theater, for your service 
back here stateside.
    I think it has been one of the better hearings that we have 
had. I thank you very, very much for being straightforward with 
us.
    General Brogan, thanks as always for the phenomenal job 
of--your life-saving-job--on the MRAP program.
    And with that, if there are no further questions, this 
subcommittee hearing is adjourned.
    [Whereupon, at 4:13 p.m., the subcommittees were 
adjourned.]

=======================================================================




                            A P P E N D I X

                             March 17, 2010

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2010

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
